 

WAIVER

SUPREME COURT OF THE UNITED STATES

we OLS 3
Supreme Court Case No, 29-5183

 

Keith Hoglund y, Ron, Neal, Warden

(Petitioner) (Respondent)
IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court
Please check one of the following boxes:
{ Please enter my appearance as Counsel of Record for all respondents.

(There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since your admission):

si rave — Stuy 9. Crenscry feng
_ Ougust: 4, 2620

Stephen R. Creason
Mur OMs. Mr. QO Miss

Office of the Attorney General

 

(Type or print) Name

 

Firm

 

Address _Indiana Government Center South, 302 W. Washington Street, Fifth Floor

City & State Indianapolis, IN Zip 46204

 

Phone_317-232-6222

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Keith Hoglund DOC #208173
Indiana State Prison 1 Park Row
Michigan City, IN 46360
